<html>
<title> - WILDFIRES: ASSESSING FIRST RESPONDER TRAINING AND CAPABILITIES</title>
<body><pre>[Senate Hearing 113-498]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-498

     WILDFIRES: ASSESSING FIRST RESPONDER TRAINING AND CAPABILITIES

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                       
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                              
                         HOMELAND SECURITY AND
                         
                          GOVERNMENTAL AFFAIRS
                          
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2014

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
        
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

90-916 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin, Staff Director
               John P. Kilvington, Deputy Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Lauren Corcoran, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
                       
                       
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Begich...............................................     1

                               WITNESSES
                         Thursday, June 5, 2014

Jim Hubbard, Deputy Chief, U.S. Forest Service, U.S. Department 
  of Agriculture.................................................     4
William R. Dougan, National President, National Federation of 
  Federal Employees..............................................     5
Kevin B. O'Connor, Assistant to the General President for Public 
  Policy, International Association of Fire Fighters.............     7
Hon. Mike Navarre, Mayor, Kenai Peninsula Borough, Alaska........     9

                     Alphabetical List of Witnesses

Dougan, William R.:
    Testimony....................................................     5
    Prepared statement...........................................    21
Hubbard, Jim:
    Testimony....................................................     4
Navarre, Hon. Mike:
    Testimony....................................................     9
O'Connor, Kevin B.:
    Testimony....................................................     7
    Prepared statement...........................................    29

                                APPENDIX

Statements for the Record from:
    Chief William R. Metcalf, International Fire Chiefs 
      Association................................................    34
    USDA OIG Audit...............................................    39
    The National Strategy........................................    97
Responses to post-hearing questions for the Record:
    Mr. O'Connor.................................................   190

 
     WILDFIRES: ASSESSING FIRST RESPONDER TRAINING AND CAPABILITIES

                              ----------                              


                         THURSDAY, JUNE 5, 2014

                                 U.S. Senate,      
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.
    Present: Senator Begich.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. We will start here in just a couple 
minutes. We are working on the video, and we have someone that 
will be testifying from Alaska, so we are trying to save him 3 
days of travel to give us 5 minutes of their wisdom. So be 
patient. Please continue while we wait.
    [Pause.]
    This is our effort to move the Senate into the 21st Century 
as we do this testimony. This is the first time, I think, this 
Committee has done this, and some of us that are far distance, 
we want to try new technology. If it does not work, they have 
Plan B and C--just like firefighters have. There is never one 
plan.
    [Pause.]
    Mayor Navarre, can you hear me? Perfect. We can hear you 
very loud and clear.
    Mr. Navarre. Yes.
    Senator Begich. Are you guys ready on the technical team? 
By non-answer, that is approval. That is how it works. You do 
not answer, it is a yes.
    So what we will do--and I know--Mayor Navarre, do you have 
yours on mute in case there is any background sound until we 
are ready to go? Or do we mute that here? Do not do anything, 
Mike. Are we good? OK.
    Thank you all very much for being here. This is something 
we are trying because it is hard to get people here sometimes, 
especially from the West, where there are a lot of these 
issues, especially firefighting issues, and especially in 
Alaska. So it is a pleasure to have folks here.
    This is the Subcommittee on Emergency Management, 
Intergovernmental Relations, and the District of Columbia, and 
I apologize. I have a little cold here, so I am kind of 
suffering so I appreciate you all being here.
    I want to thank the witnesses for being here, especially on 
short notice, to lend their expertise to our discussion. We are 
here today to take a closer look at the problems that are 
serious concerns to many States and that is wildfires. This is 
a challenge that confronts communities of all sizes, towns and 
villages, cities, States, and the Federal Government.
    As a former mayor myself, I know firsthand how important it 
is to have personnel and resources to prevent and fight fires 
when they occur. The stakes are high, and we must ensure that 
first responders who are out there protecting lives, homes, and 
businesses receive the training and support they need. That is 
why we are here--to learn from these experts and leaders about 
the situation on the ground, across the country, and from a 
variety of perspectives. We have to know where we are 
succeeding and where we need more resources or a new approach.
    There are many different levels of government involved in 
fighting fires. From local to various Federal agencies, it is 
important we have comprehensive protection and response no 
matter where a fire occurs. I know providing that protection 
has become more and more expensive, especially on the Federal 
level.
    In the past 12 years, Federal costs have averaged more than 
$3 billion a year. That does not include the $2 billion spent 
by State and local communities as well as other private 
spending. Those costs are increasing because wildfire activity 
is growing. When you talk about wildfires, most people think of 
flat, grassy States like Montana or States hit by drought like 
California. But as weather patterns have been changing with the 
rest of our climate, more States than ever are being hit by 
huge wildfires.
    In the past decade, the amount of acres burned up are up by 
almost 67 percent. Right now in Anchorage, more than 700 men 
and women are fighting the dangerous fire in the Kenai. It is 
called the ``Funny River fire.'' But there is nothing to joke 
about with this blaze. Brave firefighters, including hotshot 
crews and smokejumpers, have been fighting to put out this fire 
since May 19. They have done an amazing job, and all Alaskans 
are deeply grateful for their efforts. As of yesterday, the 
fire was 59 percent contained, and danger to life and property 
has been nearly eliminated. It scorched almost 200,000 acres of 
our forest, close to residents, businesses, and individuals.
    It is early in the fire season for something of this 
magnitude in Alaska. My State has had one of the warmest 
winters on record, and now strong winds and low humidity are 
combining to allow these fires to grow quickly.
    Over the weekend there were reports of 15 new fires in the 
Fairbanks Service Area, from Chena Hot Springs to Tok. Luckily, 
these were relatively small fires, but they only stayed that 
way because of the outstanding work of our firefighters.
    To make sure we are as prepared as we can be, that we have 
the resources and experienced personnel out there in the field, 
we have to look at the first responder hiring and retention 
practices. The skills men and women learn during training to 
become a firefighter or smokejumper or hotshot team members are 
invaluable. We must recognize their importance, not just with 
words but in how we treat them.
    Earlier today, I was proud to introduce the Senate version 
of the Federal Firefighter Flexibility and Fairness Act to 
address a glaring misstep in how we treat Federal firefighters. 
Across the country, municipal firefighters are able to work out 
changes in their schedule among themselves, with supervisor 
approval. They can trade shifts without impacting their pay 
schedules, allowing them to take care of sick family members or 
attend their children's important events. This type of 
flexibility is important to morale and life balance, and I am 
glad that State and local firefighters have it.
    But for some reason, Federal firefighters do not. Right now 
these men and women can only swap shifts within a 2-week 
period. In an accounting system that the government uses, it 
ends up with one firefighter receiving no pay for the shift 
while the other receives overtime, and it does not make sense.
    Because the system is so nonsensical, some departments do 
not allow shift swapping at all. I cannot blame them for not 
wanting to deal with that headache. But this problem needs to 
be fixed. Treating our firefighters well is not only the moral 
thing to do, but it is also fiscally responsible.
    The bravery and skills earned by these folks out in the 
field make it even more important to retain them as long as 
possible. Attrition reduces the effectiveness of our 
firefighting teams, which is unacceptable. We need to train and 
maintain the best teams we can. Clearly, that goes for 
municipal firefighters as well.
    I have been a strong supporter of the important Federal 
resources like Fire and SAFER grants that go directly to our 
local fire situation. From Palmer to Nikiski, firefighters have 
told me how beneficial these grant program are. That is why I 
am fighting to roll back President Obama's proposed cuts to 
these programs in this year's appropriation bill.
    As a member of the Appropriations Committee, I am committed 
to restoring the $10 million proposed reduction because every 
dollar spent will save more than that in local communities.
    One last issue I want to bring up very briefly before I 
introduce our witnesses is a broader issue that impacts many 
firefighters in Alaska: the disadvantages to seasonal employees 
in the Federal hiring process. I have been working with Senator 
Tester and looking closely at the bill that he and Senator Mark 
Udall have introduced, the Land Management Workforce 
Flexibility Act (LMWFA), Senate bill 1120. Seasonal workers are 
so important to Alaska. A large number of Alaskans hold 
different jobs based on the season since we have such a unique 
climate. Many firefighters come from the lower 48 to help us 
fight fires in the summer. Right now it seems to me that the 
Federal hiring practices are not giving these seasonal workers 
who have developed great expertise over many years a fair shot 
if they want to transition to a full-time job in the same 
field.
    I am glad to hear your thoughts on this issue, and I am 
looking forward to the continuing discussion with Senator 
Tester.
    Let me introduce our witnesses, and I will start with Mr. 
Jim Hubbard, the Deputy Chief of the U.S. Forest Service 
(USFS), which is part of the Department of Agriculture. Jim.

 TESTIMONY OF JIM HUBBARD, DEPUTY CHIEF, U.S. FOREST SERVICE, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Mr. Hubbard. Thank you, Mr. Chairman. I am glad to be here.
    As you have noted, we are into the fire seasons, Alaska 
especially. Arizona and New Mexico are having normal fire 
activity, but it is busy. The Funny River fire is a bit 
unusual. You do not have 200,000 acres burn on the Kenai very 
often, and that gets a lot of attention, especially with the 
values at risk and the people in the way. And what our season 
looks like is that June will continue to be a problem for 
Alaska. Maybe it will moderate by the time July gets here. I 
hope so. Alaska went a little longer than usual in past 
seasons.
    As we move further into the season and get into July, 
California and Oregon look particularly bad. Nevada is not 
going to be good. So that is where we expect most of our 
problems. It will be scattered throughout the West, as usual, 
and we will have surprises pop up all across the West. But 
those three States in particular look problematic.
    Our forecasts tell us we probably will be spending more 
money on suppression than we have in the budget, so we will go 
through that process again.
    We are prepared. The interagency forces are at 14,000 
firefighters that are available to us. Currently we have 14 
large air tankers, but we could have as many as 22 under 
exclusive-use contract before the season is over, as those 
next-generation planes begin to fly for us.
    We still have the eight military MAFFS units as surge 
capacity, and we do have the 72 single-engine air tankers under 
contract and more than 600 helicopters under contract. So the 
aviation forces and the ground forces are in place for the 
season.
    But the conditions are challenging. The long-term drought, 
the changing conditions that we face with climate and with 
fuels and with insect and disease have all caused problems, not 
to mention the development that has to be protected that is in 
the way of some of these difficult situations.
    Risk reduction occurs on about 3 million acres per year. 
That is a substantial amount, and it addresses some of the 
priorities. It does not cover the territory that needs to be--
the risk that needs to be reduced.
    It is a combination of what you do on the landscape and 
what you do in the community and around the community that will 
save us in the future.
    Some of our limiting factors have to do with the transfers 
that occur when we do not have the suppression dollars to pay 
the bills and we have to take it out of other accounts in the 
Forest Service to do so. Then how we budget for suppression has 
been an ongoing debate. You mentioned do we have the resources 
and do we have the right approach. Perhaps that needs another 
look, and other looks such as was proposed by Senators Wyden 
and Crapo in the bill they introduced that suggests that 
perhaps the Forest Service and the Federal agencies continue to 
provide in their budget the initial attack and the forces and 
the cost of that initial attack. And we do catch 98 percent of 
our fires during that initial attack period, but it is those 2 
percent that get away that cost us about 30 percent of that 
suppression budget, and those are fires that perhaps fall into 
a disaster category and ought to be treated and financed 
differently.
    If that were to happen, then we would hope that the agency 
could make proposals for using some of that budget constraint 
to increase the land treatment and reduce the risk further. 
That would be our approach, and we would hope that something 
like that could at least be considered.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    I will ask questions at the end, but let me ask William 
Dougan, national president of the National Federation of 
Federal Employees (NFFE), next please.

TESTIMONY OF WILLIAM R. DOUGAN,\1\ NATIONAL PRESIDENT, NATIONAL 
                FEDERATION OF FEDERAL EMPLOYEES

    Mr. Dougan. Thank you, Mr. Chairman and Members of the 
Subcommittee, for inviting me to testify. Our union represents 
110,000 Federal workers, including 20,000 in the Forest 
Service.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dougan appears in the Appendix on 
page 21.
---------------------------------------------------------------------------
    For 22 of my 31 years in Federal service, I fought 
wildfires, serving in many positions. I spent 16 years on the 
Tongass National Forest in Sitka, Alaska. I can tell you that 
firefighting is a dangerous business. When you are on a fire, 
the only thing between you and trouble is your equipment and 
the brave men and women with you on the fire line. That is why 
it is so important that we arm firefighters with the training 
and resources they need to be safe and complete the mission.
    The wildfire problem in the United States is growing. Six 
of the worst fire seasons since 1960 have occurred since 2000. 
We must recognize that this is the new normal, and we must 
change the way we do business to account for it.
    With respect to training, the U.S. Department of 
Agriculture (USDA) Inspector General (IG) issued a report in 
2010 that predicted future shortages of qualified firefighters 
in the Forest Service. Too few were being trained to replace 
those retiring. That prediction is now coming to fruition, and 
it is a major problem. Wildland firefighting agencies have done 
tremendous work to improve interagency cooperation. The 
development of a consistent certification and training system 
administered by the National Wildfire Coordinating Group (NWCG) 
is an outstanding achievement.
    Our union is proud to be a partner in the Wildland 
Firefighter Apprenticeship Program (WFAP), which we hope will 
take consistency and training to the next level. Unfortunately, 
this program has been underutilized, in our view.
    Within the Forest Service, training and resources are not 
reaching the field in a timely way. From one forest we are 
hearing that primary fire personnel are unable to attend 
training classes that are only offered out of State, leaving 
them no option for certain training. At another forest we hear 
that managers are getting their training budget too late to get 
employees into classes.
    Congress can improve access to training by exercising 
oversight to ensure that the action items developed as a result 
of the referenced IG report are properly implemented and make 
certain the apprenticeship program is used to its fullest 
potential. Also, Congress should make every effort to 
appropriate funds in a timely manner so resources get to the 
ground in time to be used.
    With respect to workforce retention, the attrition rate for 
wildland firefighters is alarmingly high. Something must be 
done about it. Here is something that can be done right now. 
For a wildland firefighter, experience is hard-earned on the 
fire line. However, the firefighter career path is blocked by 
flawed and dysfunctional Federal regulations. Many Federal 
firefighters begin their careers on temporary appointments. 
Many return year after year, acquiring valuable training and 
experience. However, firefighters looking to advance their 
careers face a critical barrier. Current regulations do not 
credit their service, regardless of how long, as qualifying for 
acquiring ``competitive status.'' Because of this barrier to 
career advancement, many skilled firefighters eventually leave, 
taking their valuable skills with them.
    To explain, agencies have the flexibility to fill positions 
from current employees under merit promotion or from among 
civilian applicants under the competitive process. Over 2 
million other Federal employees have the status to compete 
under merit promotion. However, firefighters classified as 
``temporary seasonal workers'' do not. They cannot compete for 
jobs filled under merit promotion procedures. We strongly urge 
passage of the bipartisan Land Management Workforce Flexibility 
Act, S. 1120, which would address this inequity.
    Funding for wildfire suppression is also a problem. With 
the occurrence and severity of wildfires increasing, the 
portion of the budget that goes to fire suppression and 
preparedness has increased dramatically.
    The expense of fighting wildfires often exceeds the funds 
appropriated for wildfire suppression. When this happens, 
agencies transfer funds from other programs into firefighting 
accounts to cover the shortfall. This so-called fire borrowing 
results in cancellations and delays in the agency's on-the-
ground program of work.
    Ironically, many of the canceled projects are those 
designed to reduce the frequency and severity of catastrophic 
wildfires. It is robbing Peter to pay Paul, and it costs 
taxpayers more. We urge Congress to pass the Wildfire Disaster 
Funding Act (WDFA), S. 1875, to address this.
    I will conclude my testimony by quoting one of our members 
currently out on fire assignment in Alaska: ``In Alaska, we do 
have a well-constructed, tactical plan to deal with fires, but 
wildland fires are on the increase. We fight to put the fires 
out immediately. We address the hazardous fuels.'' But 
sometimes forests are allowed to grow into a dangerous State of 
overgrowth and decay, causing a hazardous situation.
    It is time for Congress to take action to provide the 
resources and the flexibility necessary to prevent this 
hazardous situation from occurring in national forests across 
the country and to protect communities across our Nation from 
wildfire. These reforms cannot wait until next year. They need 
to be acted on immediately.
    I thank the Subcommittee for holding this hearing and I 
would be happy to answer any questions you may have.
    Senator Begich. Thank you very much for your testimony.
    Just to note, all the written testimony also is included in 
the record to augment your verbal testimony.
    Next we have Kevin O'Connor, assistant to the general 
president for public policy of the International Association of 
Fire Fighters (IAFF). Kevin.

  TESTIMONY OF KEVIN B. O'CONNOR,\1\ ASSISTANT TO THE GENERAL 
PRESIDENT FOR PUBLIC POLICY, INTERNATIONAL ASSOCIATION OF FIRE 
                            FIGHTERS

    Mr. O'Connor. Thank you, Mr. Chairman. I am here today 
representing the 300,000 professional firefighters and 
paramedics who provide fire, rescue, and EMS services across 
our great Nation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. O'Connor appears in the Appendix 
on page 29.
---------------------------------------------------------------------------
    First, let me thank you for the introduction of the 
Flexibility Act--our Federal firefighters greatly appreciate 
it--and for your stalwart support on appropriations for the 
other programs. It is very much appreciated by our 
organization.
    Wildland fires are increasing in intensity, duration, and 
scope. They are a threat from coast to coast. From 2003 to 
2012, over 17 million acres have been scorched by wildfires, 
claiming over 300 lives, destroying 34,000 homes, and resulting 
in over $70 billion in insurance claims.
    As you know, Mr. Chairman, the raging fires currently 
threatening your State are a stark reminder of this present 
danger. Before the hearing, we spoke with Tom Wescott, our 
State president in Alaska, and he estimates that the vast 
majority of his membership, municipal firefighters, will be 
engaged in those efforts before the fire is finally brought 
under control.
    The scourge of wildfires has become epidemic and will 
continue to imperil our Nation. The IAFF supports the 
Administration's proposal changing the way in which the Federal 
Government budgets for wildland firefighting. It makes sense. 
It should be done. But it is only a first step.
    For decades, foresters and firefighters have battled on how 
to deal with wildfires. Today, with the increased development 
in the wildland-urban interface, we must develop a more global 
and holistic strategy to deal with this issue. Clearly, the 
Federal Government must take the lead. We applaud Congress for 
mandating the National Cohesive Wildland Fire Management 
Strategy. This strategy establishes a national vision for 
wildland fire management and response. The strategy is an 
excellent first step, but once again more must be done.
    In the 1960s and 1970s, American cities were blighted by an 
epidemic of arson and fire deaths, analogous to what is 
occurring today with wildfires. To address this crisis, the 
National Commission on Fire Prevention and Control issued the 
landmark report ``America Burning.'' Over 40 years later, the 
document is frequently cited and still has value. The Federal 
Government should take a similar approach to the wildland fire 
problem. We propose the establishment of a Blue Ribbon 
Commission, modeled after ``America Burning,'' with 
congressional participation, to fully study this issue and make 
recommendations.
    Although the IAFF has implored the Administration to 
establish such a commission, they have yet to act. The Federal 
Government is the only entity that can ensure the participation 
of all stakeholders. We hope that, either on their own volition 
or with a gentle nudge from Congress, they will soon act.
    State and local governments also contend with devastating 
wildland fires. On privately held or State-owned lands, 
firefighting operations are exclusively handled by State and 
local assets. It is safe to say that west of the Mississippi 
and throughout the Southeast, nearly every firefighter will 
ultimately be called upon to fight a wildfire. Disturbingly, 
not all firefighters are trained to battle these fires. Cash-
strapped fire departments frequently cannot afford to provide 
training. We propose that the Federal Government establish a 
pilot program to provide wildland fire training for local 
firefighters in high-risk areas.
    Furthermore, because firefighting is an inherently 
governmental function, it should be a default policy of the 
Federal Government to contract with a governmental entity 
having jurisdiction in the impacted area if additional 
firefighting resources are needed beyond the Federal effort.
    However, if private contractors are required, they should 
be required to meet the same rigorous standards of their 
governmental counterparts, period. This is an issue of public 
safety, firefighter safety, and operational efficiency.
    Last, we need to protect the men and women on the fire 
line. Not quite a year ago, 19 brave wildland firefighters from 
the Granite Mountain Hot Shots team and proud members of the 
IAFF Local 3066 died in the line of duty battling the Yarnell 
Hill fire. Those tragic deaths and, indeed, the death or injury 
of any wildland firefighter should give us pause.
    Wildland firefighting is physically taxing, emotionally 
draining, and incredibly dangerous. The job differs greatly 
from that of a structural firefighter. Wildland firefighters 
are on scene fighting fires for days or even weeks at a time. 
Through government investment and research over many years, 
much is known about the health impacts of fighting fires for 
structural firefighters and how best to protect them. But we 
are only beginning to examine these impacts on wildland 
firefighters.
    As a leader in firefighter health and safety, the IAFF is 
uniquely positioned to help coordinate research efforts. With 
our California Forestry Local 2881, San Diego State University, 
and much appreciated funding from the Department of 
Agriculture, research has already started. San Diego, 
partnering with CDS, studied improving protective clothing worn 
by wildland firefighters--a great start. To prevent death and 
injury, it is incumbent that we study appropriate staffing 
patterns and other operational metrics to ascertain the impact 
on firefighter health and safety. Partial funding from DOA has 
been provided for such efforts, and we encourage the Federal 
Government to continue this investment until the research is 
completed.
    In closing, we must act now and very decisively on multiple 
fronts to address this complicated issue. I thank you for the 
opportunity to testify and will gladly answer any questions.
    Senator Begich. Thank you very much.
    Let me go to Mayor Navarre, mayor of Kenai Peninsula 
Borough from my State of Alaska. I was down there about a week 
or so ago at the Funny River fire, which, as we all know, has 
been a top priority, I know, for firefighting. So we appreciate 
Mayor Navarre, and thank you also for being a pilot here of 
trying to use our technology. So we will allow you to testify, 
and then we will open it up for questions after your testimony. 
Mayor Navarre.

  TESTIMONY OF THE HON. MIKE NAVARRE, MAYOR, KENAI PENINSULA 
                        BOROUGH, ALASKA

    Mr. Navarre. Thank you, Senator Begich. I appreciate your 
holding this hearing and for touring the area when you did and 
asking the right questions about the adequacy of the response 
and whether or not resources were available where needed and 
when needed. And the answer to that I think is absolutely. I 
was exceptionally impressed with the incident command structure 
and the way that there was coordination between all of the 
agencies as this fire was developing. We had incredibly high 
winds, changing wind directions and conditions. But the 
knowledge that the command team had of fuel sources, of fire 
behavior, logistics, all of the things that count when you are 
really reacting to an ever-changing fire dynamic was truly 
impressive.
    The coordination between the agencies, I cannot say enough 
about how all of the resources and the resource agencies worked 
together. One of the things that I should point out is that the 
refuge folks were quick to order up a command team, and also 
had done some fire breaks between urban and wildland interface 
that really were critical to the way that the planning and 
protection of the populated areas and the structures there. So 
we were very fortunate.
    So I want to say thanks to you and to the resources that 
were put toward this, and the result was that we had very few 
small structures, some remote cabins that were lost. Absent 
that, all of the residential areas were protected. The 
priorities were clear from the outset, that is, protection of 
the firefighters who were employed, also protection of land and 
property in the urban areas and the developed areas around the 
peninsula, and then looking at where the important 
infrastructure is, including some very high voltage lines that 
needed to be protected.
    And I want to also talk briefly about the importance of the 
planning process well in advance of what we know are going to 
be an increasing number of wildfires, and that is, Federal 
resources are important to the Kenai Peninsula in a variety of 
ways. We had funding over a long period of time to deal with 
the spruce bark beetle infestation that allowed us to build a 
coordinated plan that we could identify where the consensus 
was. And where the consensus was is making sure that we enhance 
natural fire breaks--power lines, roads--between urban and 
rural or wildland areas in the event that at some point we saw 
a wildland fire that would threaten the developed areas.
    So over a period of time, I think we got as much as about 
$18 million from the Federal Government, and we used that to 
build fire breaks, to do a Firewise program, to remove fuel 
sources. So I think that that is critically important.
    The other thing that was important and that we also used 
Federal grant funding for was the borough's geographic 
information system. We have a very good system. We update it 
regularly. The last time we were able to update it with a 
Federal grant, doing some aerial flight to gather the data and 
put it into our system, was actually 2012, so we had pretty up-
to-date information on where structures were, including in 
remote areas, and it allowed them to tap into our system and 
use it to know where they were going to muster their resources, 
where their fallbacks were. So it was an excellent planning 
tool for them.
    So I guess that is one of the things that in looking at 
whether or not resources were adequate in this case, as I said, 
I was very impressed with the level of effort that went into 
this fire, the resources that were employed on the fire, the 
planning that went into it on a nightly basis, and then the 
planning that was put into place and executed on a daily basis 
and sometimes an hourly basis.
    So I think we did have adequate resources, and one of the 
things that I am thrilled about was your efforts to get the 
drones at the University of Alaska-Fairbanks. That was 
something that was employed in this fire, at the end of it, to 
do some overflights. And I think that it is something that will 
be an even more increasingly valuable tool as we move forward. 
And as you know, Senator, the State of Alaska has incredible 
remote wildland areas and a lot of interface between rural and 
urban and small pockets of developed areas and populations. So 
it is critical in Alaska.
    So I want to again thank you and thank the incident command 
team, Rob Allen, also FEMA, and the pre-planning that we had 
through our Office of Emergency Management and the coordination 
that our emergency manager did in mustering local resources to 
help support that effort. I think all of that, was a good 
example of how in part we were lucky but the reality is that 
there was a lot of planning that went into it well in advance 
of when a fire might happen, and it really worked in this case. 
So I think it is a good example of the right amount of 
resources, the right amount of expertise that is brought in 
from a lot of different areas around the country and around the 
State. So it was impressive.
    Thank you.
    Senator Begich. Thank you very much, Mayor. And just for 
folks here in the room, these are pictures from that fire, and 
it is incredible devastation that occurred. And I was down 
there on Monday. As Mayor Navarre talked about, some incredible 
resources all came to the table at the right time.
    There was one thing you had mentioned, Mayor, and I want to 
just ask you, and I made a note here, but your borough mapping 
system, was that funded by the borough or was that a 
combination of Federal or State? Or how did you upgrade that?
    Mr. Navarre. It is operated by the Kenai Peninsula Borough, 
and it is available publicly, and it has a lot of tools that 
the folks who are familiar with GIS systems can tap into and 
use to get all kinds of different vegetation mapping. There are 
a lot of tools that are available on it that can be used to 
identify, as I said, where strategies can be employed to attack 
a fire like this.
    And, the other thing that I should mention is--and you are 
aware of it, but oftentimes at the Federal level, the sheer 
perspective and size of this fire was huge. But in terms of the 
State of Alaska and even the Kenai Peninsula, it is only a 
small portion of our land mass.
    Senator Begich. Thank you very much.
    Jim, you might be able to answer this first question I 
have. When I was down there, I took a tour of some of the 
areas, and what I saw were these areas where they thinned out 
some of the trees and found natural breaks. I think the mayor 
described some of those areas, and you could go from the very 
heavy clustered area and then these thinned out areas and then 
in some cases a road or utility corridor. And the comments I 
got were, it was a raging fire, and then when it hit that 
thinned-out area, it dropped lower to the ground, and 
firefighters could attack it, manage it much quicker and 
control it at that point.
    And they were describing to me that came from--I was 
expecting to hear a big number, to be honest with you, a big 
cost to that piece. And they said, no, that was about $175,000 
out of the wildland fire fund that they were able to get a 
grant for to do that.
    Can you tell me the status? I know that has been under 
pressure for many years in its financial capacity, because that 
is more preventive than disaster. So tell me a little bit about 
that fund, and is the Administration talking about looking long 
term at that and additional resources? And does that connect at 
all--and I am going to put this issue way over here for a 
second. I know the President has put together a proposal, I 
think it was $1 billion, on climate change issues and so forth, 
disaster management, some other things. Is that at all 
connected? Just a two-part question there. The impact was 
unbelievable, because then they showed me the area where they 
were unable to do it, and it just swept right across the road. 
It was an unbelievable difference.
    Mr. Hubbard. Mr. Chairman, as you just described, the 
effect of that land treatment on fire behavior is exactly 
right, and that is what we are after. And where we place those 
treatments is pretty important, too, because if we do that in 
combination with the community that has invested in being 
adapted to fire, a little more fire wise, then we have a chance 
of protecting that community and saving it, even when fire like 
this comes their way.
    And most of that money is appropriated through the Forest 
Service, and we work through the State forestry agencies, on 
the private lands at least. And what happens there is the 
competitive process in the West with those different States 
proposing their highest priorities for protection and the money 
being allocated.
    Senator Begich. So is that fund, that money comes out for 
local communities like this that get grants. Give me the sense 
of that. Because what I understand, it is under pressure and 
not as robust funding as it used to be. Can you comment on 
that?
    Mr. Hubbard. We try to protect that one.
    Senator Begich. Does it need more? I am giving you a 
softball there. I know you probably cannot answer because the 
Office of Management and Budget (OMB) probably has not told 
you--but feel free.
    Mr. Hubbard. Well, what I think I can say----
    Senator Begich. Because I might jump to these two, and they 
will answer it.
    Mr. Hubbard. You asked if it was connected to the 
President's climate change proposal, and we are working with 
the Administration through the Department on what we might be 
able to propose in that regard as part of that billion.
    Senator Begich. So maybe how to attack some of that money 
and maybe move it----
    Mr. Hubbard. Perhaps, but it is definitely connected to the 
proposal for how we finance suppression. If that were to pass 
or go into effect and free up for the Forest Service roughly 
$300 million of discretionary funding, then the appropriators, 
of course, control that.
    Senator Begich. Right.
    Mr. Hubbard. But that would be our proposal, to use it this 
way.
    Senator Begich. Well, let me make sure I clarify what that 
is, because I know some people who might be watching or later 
find out what we are talking about, in the past, the way your 
disasters were funded, where fires occur, you rob all these 
accounts, because we never funded it enough. Then we come back 
and try to fix it all, and we never really do totally.
    Now the idea is--and I might be wrong about these numbers, 
but I know I am close. We look back 5 years, figure out about 
80 percent of what that cost is, and try to fund it, so you are 
at least having a budget to work from so you are not robbing 
all these other agencies. Is that fair?
    Mr. Hubbard. That is fair.
    Senator Begich. And I can tell you, when I said that--and I 
know Mayor Navarre was there when we were doing an incident 
press conference, and I said that. One of your employees, I 
think, in the middle of the press conference--I loved it. He 
was in the back. He jumped up, excited about the whole thing, 
because it sounds like that is a big piece of this puzzle that 
you need to get out of the way in order to fund--and this is 
the piece that Wyden and Crapo are working on. But as an 
appropriator, I think we are going to try to do this year.
    Mr. Hubbard. Yes.
    Senator Begich. In the appropriations process. So that is a 
real positive for all of us. Is that a fair statement?
    Mr. Hubbard. That is a fair statement, and thank you very 
much.
    Senator Begich. We like that.
    Let me ask you, there was an estimate or--we know since the 
1990s the amount of money for suppression has gone from about 
$1 billion to $3 billion, but there is a new report or some 
report out there that talks about we are still going to be 
about half a billion short in the efforts. Do you agree with 
that based on your analysis and what you are seeing this 
summer?
    Mr. Hubbard. Yes, I do. Those forecasts come from Forest 
Service research, and they provide them to us periodically 
during the year. It is based on what is going on with the 
forest conditions. It is based on the drought. It is based on 
how the weather patterns are setting up with Pacific 
oscillation and ocean temperatures. It gives us an indication 
of what is coming our way for the season and where it might hit 
and what that might cost. And right now it is predicting that 
we will fall short.
    Senator Begich. The comment that Mayor Navarre talked 
about, which was the spruce bark beetle, at least in my State, 
but I know Colorado has issues, the Northwest has issues. I 
mean, it just is a constant growing problem. For several years, 
I know Alaska was earmarked. We had earmarks that we were able 
to do this. For some reason some people in this body do not 
like earmarks. I do, because people I think did not understand 
what it was. It was not adding to the budget. It was taking 
from the existing budget, and it gave some discretion of how to 
attack these issues.
    Do you think we have enough resources to go after it? I 
used spruce bark beetle in my State, but I know they are 
different in other States. Basically a beetle kill or forests 
that have dead kill in them, are we doing enough there? Or do 
you think that is an area that maybe we better be watching 
carefully here? Because that could be growing because of these 
drier temperatures and droughts that we are facing. Does that 
question make sense?
    Mr. Hubbard. Yes, it does.
    Senator Begich. OK.
    Mr. Hubbard. The drier temperatures, the drought, the 
condition of the forest, the age of the forest, in the West it 
is largely a disturbance forest, and it was created by 
disturbance, and it is being regenerated by disturbance--fire, 
insect, and disease. That is going to continue on a large 
scale. And there are things we can do to mitigate that. We 
cannot stop it, but, yes, there is more that can be done to 
help with the impacts of it.
    Senator Begich. Let me, if I can, to Mayor Navarre, and 
then I am going to go to you two in just a second here. Mayor 
Navarre, at this point you do not have any more Federal 
resources for that type of activity in the spruce bark beetle 
cleanup or management at this point? Or do you still have 
Federal resources you are still tapping into? Or is that pretty 
much gone? And what are you doing now to combat that issue?
    Mr. Navarre. What did we do?
    Senator Begich. In other words, the grant money you used to 
get, do you still have any of that remaining that can still be 
used to do some of that spruce bark beetle management? Or what 
are you doing now that those resources are pretty limited to 
manage that dead kill?
    Mr. Navarre. Well, it actually happened last time I was 
mayor, from 1996 to 1999, where we identified the problem, and 
before that, Mayor Gilman had come to the Alaska Legislature 
for some funding in order to do some fire breaks in the Cooper 
Landing area.
    When I succeeded Mayor Gilman in 1996 and flew over the 
entire Kenai Peninsula, I was actually shocked at the level of 
infestation and the potential for a huge fire, and, really, 
because of the different land ownerships and agency oversight 
and things like that, what we did initially was put a task 
force together that worked very well, reaching common ground on 
things that everybody could agree on: natural fire breaks and 
enhancing them, whether they are power lines where you have a 
100-foot right-of-way and trees on each side that are 200 feet 
tall, trying to broaden those a little bit, making sure that 
you clear rights-of-ways for roads a little bit further. And 
then perhaps as importantly as the Firewise program, defensible 
space, things like that, because people want to stay in their 
homes and protect their homes. It is their largest investment 
oftentimes in their entire life.
    And so making plans ahead of time that put resources into 
those types of necessary areas so that when you have an event 
like this you have the ability to actually combat it on a 
reasonable basis and at the same time putting adequate 
resources to it and protecting the folks who are actually out 
there fighting it, as well as the urban areas.
    So we still have areas that we could use additional funding 
for, but, we are going to go forward with that in any event, 
the educational process of homeowners, where they can build 
protections as best they can, and then making sure that our 
emergency operations plans are in place. The reverse 911 system 
in this case worked exceptionally well for pre-notifying folks, 
and then when there was an evacuation in two areas, we could 
get them out in an orderly manner. Again, those are things that 
are critically important in the interim between what, as I 
said, we know are going to be growing numbers of fires.
    Senator Begich. Thank you very much.
    Jim, I said I would have no more questions, but I have one 
more, and I just remembered when Mayor Navarre was talking to 
me. I saw this map of this utility company, I think it might be 
Homer Electric, but I am not sure. They had a power line going 
through two Federal properties, one a reserve and one not. And 
yet they were able to clear their power line area, so they had 
a clear area, all the way, and then this new designation of 
Federal land goes after that, and they cannot clear it. Yet, to 
anyone else you would not know the difference between the land 
except you suddenly see there is no clearing going on. And 
their point was part of their job, because they have to access 
those utility lines, is to have that area cleared. But also 
from a fire protection area, it is a fantastic opportunity 
there.
    Have you run into this problem elsewhere, where you might 
have a different designation by a Federal agency of one land 
and then another designation side by side? And maybe it is only 
the West that has this problem. And yet, I mean, I could not 
believe the map. I mean, they show where they clear-cut, this 
strip for the power line, great, fire break, everything, 
utility corridor, then it just stops. But the utility corridor 
still keeps going with the utility line, and they are not 
allowed to clear this other area. But yet the fire could occur 
anywhere.
    Do you run into this? Not to get you in trouble with any 
other agency, but is there something we could do here 
legislatively to help this problem?
    Mr. Hubbard. Yes, we run into the problem, and it is not 
just differences of Federal ownership. It is differences with 
State and private ownership. So when we get into this, it 
really takes everybody coming together. And different agencies 
have different mandates and different environmental clearance 
processes that they have to go through. But when you have a 
common problem such as this and you have values at risk that 
need to be protected, then you need to find a way of working it 
out together.
    Senator Begich. I may bring you an issue then, because I 
just think in some of these States that have this huge swath of 
jurisdictional issues, especially Federal land, it seems like 
we should figure out this, because the comment--I mean, on the 
one hand, we are watching one area burn up; on the other hand, 
we are controlling it on another land because we did this the 
right way; on the other hand, the other side is just burning up 
because we did not do the right control. So we will followup.
    Let me, if I can, to William and Kevin, thank you very much 
for being here. There was a recently released National Wildfire 
Strategy. Are either one of you familiar with that?
    Mr. Dougan. Yes.
    Senator Begich. OK. Can I assume that you were engaged--
your organization or members of your organization might have 
been involved in that strategy or at least responded to the 
strategy?
    Mr. Dougan. Our organization was not directly engaged in 
that.
    Senator Begich. OK.
    Mr. Dougan. We certainly have had input, over the years, 
talking about fire management issues and about the more 
strategic picture with how we manage our landscapes across the 
country.
    Senator Begich. And why I bring this up is Kevin had a 
comment about a blue ribbon committee, and it seemed--one thing 
I am always nervous about, to be frank with you, is another 
committee around this place, because we will committee stuff to 
death. You had mentioned, as a matter of fact, the IG report, 
which is a question I am going to ask my staff to say, OK, that 
IG report came out, what have we done, what have we not done? 
Because as we have found with the VA, when you have IG reports, 
you actually should respond to them. And this might be the same 
thing.
    But do you think this strategy could morph into where we 
engage stakeholders--and this, again, for both of you--to 
engage stakeholders to say, look, we have this strategy, is it 
the right strategy? What do we need to do? What is the action 
plan that goes with the strategy to move us forward in a 
preventive way as well as a response in a sense? Can you 
respond to that?
    Mr. Dougan. Sure. I think the national strategy has great 
utility in terms of being a very strategic sort of broad-based 
document to get us to thinking about how we engage each other 
across jurisdictional boundaries, across geopolitical 
boundaries, across other regional boundaries, because that is 
part of the problem that we have in this country where----
    Senator Begich. Some of those land issues that--they are 
jurisdictional.
    Mr. Dougan. Yes, absolutely they are, and it becomes very 
difficult and challenging to try to deal with fire across those 
boundaries, because you have to understand fire does not 
respect geopolitical boundaries or other jurisdictional 
boundaries.
    Senator Begich. We saw that on Kenai. They really do not.
    Mr. Dougan. Yes. And so the challenge for us as a country 
is to figure out how can we engage the stakeholders and get 
people to understand that this is not just a Federal issue, 
this is not just a State issue, this is not just a local issue. 
This is a national issue that everybody, has skin in the game 
on.
    Senator Begich. A good example of that, I think $3 billion 
plus taxpayer money.
    Mr. Dougan. Absolutely.
    Senator Begich. And I think the data point that, Jim, you 
gave, which I thought was interesting, 98 percent of those, you 
get right at them, but it is that 2 percent that then add to 30 
percent of the costs. And those are ones where we may not be as 
aggressive as we could be. And so I thought that was an 
interesting quote.
    I am going to jump back and forth a little bit, but you 
heard the commentary here, because I like the idea that we 
attack this issue in the sense of what do we need to do, 
because there are clearly changes in the environment. For 
Alaska to have a fire of that magnitude in May is unheard of. 
And we were very fortunate where it was and how quickly they 
could control it on the back end, because it could have to a 
whole bunch of businesses, homes, property, lives. And it seems 
like these little things of prevention could actually--in some 
cases, we lucked out on one. It jumped over a river. But then 
it hit a swamp. Thank God the swamp was there, because then it 
moved a different direction. The winds helped us. But then 
those winds are moving left and right literally in a 24-hour 
cycle and aggressively moving that fire.
    Give me your thought on this strategy, and can it be 
morphed into this idea you have that, given these stakeholders 
and just going after this?
    Mr. O'Connor. Well, let me first say as an old firefighter, 
I am not much on commissions or meetings, either. [Laughter.]
    Senator Begich. I know a lot of firefighters, and you fit 
that mold. I could tell you right now, hear that voice.
    Mr. O'Connor. But with respect to this issue, first, I do 
want to laud what the National Action Plan has done. I agree 
with Bill. I think it has an awful lot of utility. And the 
Wildland Fire Leadership Council I think is doing a very good 
job. The International Association is not part of that, but 
this is not a parochial issue for us. This is such a 
complicated issue. You can get firefighters in a room, and you 
can come to consensus. On the ground, the coordination between 
Federal, State, and local assets is tremendous. But it is more 
than just a fire problem. And in my oral testimony, I used the 
term ``holistic.'' And by that I mean if you actually read the 
Action Plan, which I have in my hand and I think is a great 
document, all it talks about throughout the document is 
bringing people outside the Fire Service, other stakeholders, 
to the table. And, quite frankly, efforts were undertaken 
several years ago by the congressional Fire Service Institute, 
the International Code Council on trying to bring people 
together, and they were not successful. Why? Because, frankly, 
nobody had the hammer to get all the stakeholders sitting at a 
table, the home builders, the code enforcement folks, all of 
these people who were not part of this effort, but, frankly, 
who need to be involved in a larger dialogue as it relates to 
this problem, because as everyone testified, it is going to be 
a problem for many years.
    And my analogy to ``America Burning'' was simply made to 
draw that point, I mean, if you look at the history there, and 
it worked very effectively.
    Senator Begich. Basically what happened there was Congress 
got involved and said, look----
    Mr. O'Connor. That is right.
    Senator Begich [continuing]. We see this as a national 
issue, we are not interested in, one group taking the lead or 
another group. We just want to have a strategy that has an 
action plan that we can look at and determine if we can fund 
it, help it, make it happen from the State, local, private, 
Federal level. That is what happened there.
    Mr. O'Connor. That is absolutely correct. And even though I 
do have an aversion to those type of commissions, I really do 
not see any other entity, aside from the Federal Government, 
that can really force people to the table to have that 
conversation.
    Senator Begich. William, do you agree with that?
    Mr. Dougan. Yes, I think the convener has to be the Federal 
Government. And I think we need to start thinking outside the 
box of, what do we need to do, what are the interests that we 
need to satisfy to get these people to the table? For some it 
may be we might need to consider some incentive program such 
as, if you participate in this program and do certain pre-
treatments to your land, you could get a tax break, for 
example.
    Senator Begich. Got you. That is an interesting idea.
    Mr. Dougan. Because, again, as you described on the Kenai 
with the utility corridor, if we have people that are 
participating or landowners that are participating and other 
landowners that are not, that is really not going to solve the 
big problem.
    Senator Begich. Right. What was more amazing about that is 
there were two Federal agencies, one wanting to, one not. That 
is something we definitely have control over in this body.
    Let me ask, you had said something that I thought also--two 
things. One, I think in your written testimony it says,``. . . 
we are still doing business the old way and it is not 
working.'' And then you also talked in your oral presentation 
about apprenticeship programs, which I am always intrigued 
about apprenticeship programs. We used them quite a bit when I 
was mayor of Anchorage. And obviously as a Senator I use 
internship programs all the time. I was intrigued by that.
    When you say it is business as usual, not changing much, 
can you give me a sense of what are those innovations that we 
need to be doing? Which I do agree with you on the issue of the 
temporary. We had the same problem when I was mayor of 
Anchorage. We had great parks and rec people came back every 
single summer. They had probably 20 years doing it. But because 
of the way the system worked, someone could come in that has 
been working for the city full-time, first-year employee, and 
walk in and have a better chance of getting that job than the 
temporary. We changed that because we thought that was not 
right, because if you have 20 years working this seasonally, 
the odds are you are pretty good at it, because we would not 
hire you back seasonally for 20 years.
    So besides that, which, obviously I have introduced 
legislation to fix that, we think there are a lot of 
interesting ideas here. Tell me what you are thinking here when 
you say ``the old way.'' And maybe I will turn to you, too, 
Kevin.
    Mr. Dougan. Well, I mean, another good example is the 
funding issue. How do we pay for fire suppression? I mean, 
historically Federal agencies have basically been given a 
budget of, X million dollars for fire suppression, and when the 
money runs out----
    Senator Begich. We rob everywhere.
    Mr. Dougan. Yes, the agency is forced to look elsewhere in 
its budget to come up--because, again, we cannot--fire is 
unique, relatively speaking----
    Senator Begich. Right.
    Mr. Dougan [continuing]. In terms of an agency's program. 
We cannot just walk away and fold our tents up and leave.
    Senator Begich. Again, so you support the concept of the 
Wyden-Crapo bill.
    Mr. Dougan. Absolutely.
    Senator Begich. And what we are doing in the Appropriations 
Committee, which I feel very confident about we are moving on 
the right path here when we get the Interior budget bill, which 
will be--I am hoping that--we are doing two bills a week now. 
We just did two more today, we will do two more next week in 
the full Committee. I was somewhat shocked when I got here and 
found out we were funding at about a 20-percent level or so, 
and I am, like, well, we know the average, we know what is 
going to happen. We would hope not, right? Everyone hopes we do 
not spend anything in disaster firefighting. But that is not 
real. But maybe this approach is a better one. So that is a new 
approach that you think would be huge?
    Mr. Dougan. Yes, I think that is going to ensure that the 
agency has the funds in the programs that help it to accomplish 
its mission, whether those programs are pre-treatment--instead 
of robbing money from pre-treating forest fuels, they will have 
a full budget in that area, and we can continue to do some of 
these projects to mitigate future fire occurrences and 
hopefully allow us to catch these fires when they are small 
before they escape and become these huge catastrophes.
    Senator Begich. Thank you. Kevin.
    Mr. O'Connor. Well, I absolutely concur. I mean, we have to 
have a different mentality. Years ago, wildland fires were 
largely contained in areas that were simply that. They were 
wildland. They were massive fires, but part of healthy forest 
is fire is a natural phenomenon and they burn. And some of the 
mentality was you allow it to burn. And I am certainly not 
qualified from an environmental standpoint to comment on that, 
but from a firefighting standpoint, with the development of 
wildland-urban interface, we really have to change our view on 
how to do that.
    Now, when you talk to the folks in terms of my membership, 
which is municipal--we do not represent the majority of Federal 
wildland folks, but almost all of our people west of the 
Mississippi are engaged in wildland firefighting.
    Senator Begich. Right.
    Mr. O'Connor. The coordination on the ground is great. 
There are standard mutual aid agreements where it is automatic. 
If, for example, in California, we have a California Department 
of Forestry Station adjacent to Federal lands; they immediately 
respond and in many cases are able to mitigate the event before 
Federal resources are actually there. Conversely, the same 
thing happens when there is a Federal station near a State land 
or a privately held land. Their radio systems are very 
compatible. There is a unified command structure, and it all 
works very well.
    However, what we are hearing from our folks is that there 
is an issue--and it gets back to money--on timely repayments 
for local assets when they are assisting the Federal 
Government. And this is something that particularly in 
California some municipalities and counties are actually 
eschewing a little bit mutual aid agreements because they are 
concerned about the repayment. And it gets back to basically 
money.
    The same thing applies with training. I agree with Bill 100 
percent. Training is vitally important. But when you have a 
municipal fire department that has to train its people on 
structural response, EMS, hazardous material, clearly there is 
only so much money in a pot. And one of the things that we want 
to ensure, the Red Card, the qualified certification versus the 
trained certification, we want to make sure that every one of 
our firefighters who is going to be exposed to a wildland fire 
is going to be, No. 1, safe and, No. 2, effective on the fire 
line. And there is no substitute for training, and, 
unfortunately, that costs money.
    Senator Begich. Let me ask one last question, and, again, I 
want to thank the whole panel here. This is helpful. I know in 
the Funny River fire, I think--and, Mayor Navarre, correct me 
if I am wrong. I may not get this right. Or, Jim, you might 
know this. I think we had to bring in two Canadian water 
tankers, if I remember right, in addition to our crew. Am I 
right on that, Mayor Navarre? I think that is what happened 
down there?
    Mr. Navarre. That is what happened. They brought in a 
couple of Black Hawk helicopters, also, and they had planes 
that were also deploying retardant in areas that it would be 
effective on the particular fuel sources.
    Senator Begich. Here is my general question on that. I 
think, Jim, you laid out a really good inventory, kind of our 
mutual agreements. I am assuming that was one of them, our 
international agreement with Canada, especially Alaska and 
probably the States that border from the lower 48. On the 
equipment that we have, that we operate or that we have 
relationships with, do we believe that we have good resources 
for their continued maintenance and upgrade? Or is that an area 
that we have to really look at here long term to make sure that 
we are not--because let us assume, for example, this season is 
a busy season again. It is the argument you might make for a 
guy doing aviation that the more hours you put on that plane, 
the more wear and tear it takes, and, therefore, the capacity 
for it to operate longer term diminishes. Do you see that as an 
issue that we need to really re-examine because these fires are 
more severe and happening in longer spreads of time, meaning 
the season is longer, I should say? Is that something we have 
to look at, or is that something you are looking at?
    Mr. Hubbard. Both. We are looking at it; we have made some 
strides. We have moved from a primary fleet of 1950 vintage 
aircraft that are getting tired to a next-generation fleet. But 
we are just getting into that, so there is a ways to go on 
making sure we have updated our aviation assets, especially the 
large air tanker portion of that. And I would say the progress 
is good, but we are not there.
    Senator Begich. And we did something last year, if I 
remember this right, through the national defense authorization 
bill, I think we got 21.7 went in your direction and 14 went to 
the Coast Guard, if I remember this correctly.
    Mr. Hubbard. That is correct.
    Senator Begich. I hate to use the word, but ``surplus'' 
planes from the military that we--who knows what they were 
going to do with them. But they saw an opportunity, right? And 
we were able to mobilize them for the Forest Service as well as 
for the U.S. Coast Guard.
    Mr. Hubbard. Yes, that is correct. That was a welcome 
addition to the fleet. And we do not have those yet, but we 
will, and we will start phasing them in next year. So that was 
seven C-130H's, and we also got 15 Sherpa aircraft for 
smokejumper platforms.
    Senator Begich. Excellent. I know we worked on that from 
our office with Senator McCain, because we thought this was a 
great win-win not only for the Forest Service but the Coast 
Guard for equipment that is desperately needed. So we were 
happy to do that.
    Let me end there. I think the record will stay open for 14 
days for other Committee comments and/or questions. I want to 
thank the full panel here, especially Mayor Navarre all the way 
from Alaska via teleconference here or Skype or whatever we 
ended up here with. But you are here, which is good. We 
appreciate that, especially because you are dealing with a real 
live issue on the ground. And we thank the panel here, and 
thank you for your written testimony, because I know there are 
a lot of suggestions that some of you have placed in there that 
we will absolutely examine. This is the Committee that deals 
with emergency disaster, first responders, FEMA, and others. 
This is an important issue, and I have a feeling, as you 
described very well, Mr. Hubbard, that the summer is just 
beginning, and we are already seeing a lot of issues.
    So thank you all very much. The meeting is adjourned, and 
the record will be open for 14 days.
    Mr. Navarre. Thank you.
    [Whereupon, at 3:43 p.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED]
                                 <all>
</pre></body></html>
